                      OFFICE OF THE INSPECTOR GENERAL
                       CORPORATION FOR NATIONAL AND
                            COMMUNITY SERVICE




                             OIG Letter Report Regarding
                   Corporation for National and Community Service
                   Contract No. 97-743-1004 With Abt Associates, Inc.


                           OIG Audit Report Number 00-55
                                 August 15,2000




This report was issued to Corporation management on September 28,2000. Under the laws
and regulations governing audit follow up, the Corporation must make final management
decisions on the report's findings and recommendations no later than March 29,2001, and
complete its corrective actions by September 28,2001. Consequently, the reported findings
do not necessarily represent the final resolution of the issues presented.
                                                                                      CORPORATION

                                                                                      FOR NATIONAL




OIG Letter Report 00-55

August 15,2000

Mr. Anthony Musick
Chief Financial Officer
Corporation for National and Community Service

Dear Mr. Musick:

Pursuant to a request received from the Corporation for National and Community Service,
the Office of the Inspector General included the Corporation's contract with Abt Associates,
Inc., (Contract Number 97-743-1004) in its Fiscal Year 2000 audit plan. The contract
between the Corporation and Abt was executed on September 25, 1997. Under the contract,
Abt provides program evaluation services to the Corporation. Services are reimbursed on a
time and materials basis. The contract provides for a base period and four option periods,
with a current contract ceiling of $5,820,000. Invoices through July 19, 2000 total
$2,930,376.

OIG retained Cotton & Company, LLP, to perform preliminary survey work of the contract
to determine to what extent an audit should be performed. Cotton & Company determined
that DCAA, Abt's cognizant audit agency, is currently performing an incurred cost audit of
Abt for Fiscal Years 1998 and 1999, including both direct and indirect costs. DCAA also
intends to audit Fiscal Year 2000 by September 30,2001.

Based on this preliminary work, Cotton & Company recommended and OIG concurs that an
audit is not warranted at this time. However, OIG recommends that the Corporation obtain
and review the upcoming DCAA audit report, and that the Corporation follow up any
relevant findings.




Luise S. Jordan
Inspector General




                                                                                   Inspector General
                                                                                   1201 New York Avenue, NW
                                                                                   Washington, I)C 20.5%
